HHS/OIG Audit:"Review of Medicare Outlier Payments at Bridgeport Hospital for Fiscal Year 1999,"(A-01-01-00515)
Department of Health
and Human Services
Review of Medicare Outlier Payments at Bridgeport Hospital for Fiscal Year 1999
(A-01-01-00515)
March 14, 2002
Complete
Text of Report is available in PDF format (422 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether fiscal year 1999 Medicare outlier payments to Bridgeport Hospital
were reimbursed in accordance with Medicare laws and regulations.  Our review determined that Bridgeport Hospital
received $23,409 in overpayments relating to services that were not ordered by a physician, were not properly documented,
represented duplicate billing, resulted from submission of incorrect DRG codes and involved charges not related to an inpatient
stay.  We recommended a financial adjustment and procedural improvements.  Bridgeport Hospital